1099 NEW YORK AVENUE, NW SUITE 900 WASHINGTON, DC 20001-4412

David W. DeBruin
Tel +1 202 639 6015
DDeBruin@jenner.com

March 24, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

Seneca County v. Cayuga Indian Nation of New York, No. 20-1210

Dear Mr. Harris:
We represent Respondent the Cayuga Nation in the case referenced above. Petitioner
Seneca County filed a petition for a writ of certiorari on February 17, 2021, and this matter was
placed on the docket on March 2, 2021. Respondent’s brief in opposition is due on April 1, 2021.
Pursuant to Supreme Court Rule 30.4, we write to request a thirty (30) day extension of time to
file a brief in opposition.
In light of the press of other business, counsel requires additional time to fully respond to
the arguments presented in the petition. Amicus briefs may also be filed in support of the
petition, which Respondent needs the opportunity to address. For these reasons, we respectfully
request a thirty (30) day extension of time, until May 3, 2021, to file a brief in opposition to the
petition.

Sincerely,
/s/ David W. DeBruin
David W. DeBruin

CHICAGO

LONDON

LOS ANGELES

NEW YORK

W ASHINGTON, DC

WWW.JENNER.COM

